PROOF OF SERVICE

Petitioner Paul E. Weber hereby declares pursuant to 28 U.S.C.
1746 that he served a true and correct copy of the attached petition for
writ of certiorari on the following via U.S. Mail on January 25, 2021:
Andrew J. Vella, Esq.
Criminal Division
Delaware Department of Justice
Carvel State Office Building
7th Floor
820 N. French Street
Wilmington, DE 19801

/s/Paul E. Weber
Paul E. Weber
VCC-162469-Bldg. W
1181 Paddock Road
Smyrna, DE 19977
January 25, 2021

